<html>
<title> - FULL COMMITTEE FIELD HEARING ON THE IMPACT OF THE 2006-2007 DROUGHT ON GEORGIA'S ECONOMY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      FULL COMMITTEE FIELD HEARING 
                     ON THE IMPACT OF THE 2006-2007 
                      DROUGHT ON GEORGIA'S ECONOMY 

=======================================================================

                      COMMITTEE ON SMALL BUSINESS
                 UNITED STATES HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 25, 2008

                               __________

                          Serial Number 110-80

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               ----------
                      U.S. GOVERNMENT PRINTING OFFICE 

41-331 PDF                   WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















































































                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman


HEATH SHULER, North Carolina         STEVE CHABOT, Ohio, Ranking Member
CHARLIE GONZALEZ, Texas              ROSCOE BARTLETT, Maryland
RICK LARSEN, Washington              SAM GRAVES, Missouri
RAUL GRIJALVA, Arizona               TODD AKIN, Missouri
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
MELISSA BEAN, Illinois               MARILYN MUSGRAVE, Colorado
HENRY CUELLAR, Texas                 STEVE KING, Iowa
DAN LIPINSKI, Illinois               JEFF FORTENBERRY, Nebraska
GWEN MOORE, Wisconsin                LYNN WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          LOUIE GOHMERT, Texas
BRUCE BRALEY, Iowa                   DAVID DAVIS, Tennessee
YVETTE CLARKE, New York              MARY FALLIN, Oklahoma
BRAD ELLSWORTH, Indiana              VERN BUCHANAN, Florida
HANK JOHNSON, Georgia
JOE SESTAK, Pennsylvania
BRIAN HIGGINS, New York
MAZIE HIRONO, Hawaii

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

               Kevin Fitzpatrick, Minority Staff Director

                                 ______

                         STANDING SUBCOMMITTEES

                    Subcommittee on Finance and Tax

                   MELISSA BEAN, Illinois, Chairwoman


RAUL GRIJALVA, Arizona               VERN BUCHANAN, Florida, Ranking
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              STEVE KING, Iowa
HANK JOHNSON, Georgia
JOE SESTAK, Pennsylvania

                                 ______

               Subcommittee on Contracting and Technology

                      BRUCE BRALEY, IOWA, Chairman


HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee, Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              SAM GRAVES, Missouri
JOE SESTAK, Pennsylvania             TODD AKIN, Missouri
                                     MARY FALLIN, Oklahoma

        .........................................................

                                  (ii)

  


           Subcommittee on Regulations, Health Care and Trade

                   CHARLES GONZALEZ, Texas, Chairman


RICK LARSEN, Washington              LYNN WESTMORELAND, Georgia, 
DAN LIPINSKI, Illinois               Ranking
MELISSA BEAN, Illinois               BILL SHUSTER, Pennsylvania
GWEN MOORE, Wisconsin                STEVE KING, Iowa
JASON ALTMIRE, Pennsylvania          MARILYN MUSGRAVE, Colorado
JOE SESTAK, Pennsylvania             MARY FALLIN, Oklahoma
                                     VERN BUCHANAN, Florida

                                 ______

            Subcommittee on Urban and Rural Entrepreneurship

                 HEATH SHULER, North Carolina, Chairman


RICK LARSEN, Washington              JEFF FORTENBERRY, Nebraska, 
MICHAEL MICHAUD, Maine               Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              MARILYN MUSGRAVE, Colorado
BRAD ELLSWORTH, Indiana              DAVID DAVIS, Tennessee
HANK JOHNSON, Georgia

                                 ______

              Subcommittee on Investigations and Oversight

                 JASON ALTMIRE, PENNSYLVANIA, Chairman


CHARLIE GONZALEZ, Texas              MARY FALLIN, Oklahoma, Ranking
RAUL GRIJALVA, Arizona               LYNN WESTMORELAND, Georgia

                                 (iii)

  


















































                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Johnson, Hon. Hank...............................................     1
Westmoreland, Hon. Lynn..........................................     2

                               WITNESSES


PANEL I:
Timmerberg, Mr. Dick, LaGrange, GA...............................     3
Woodworth, Ms. Mary Kay, Executive Director, Metro Atlanta 
  Landscape and Turf Association, Atlanta, GA....................     6
Nichols, Mr. Robbie, Southern Harbor Marina, West Point, GA......     9

PANEL II:
Maltese, Mr. Joe, City of LaGrange, LaGrange, GA.................    11
Stevens, Ms. Pat, Environmental Planning, The Department of 
  Comprehensive Planning Atlanta Regional Commission, Atlanta, GA    13
Crisp, Mr. Mark, PE, C.H. Guernsey & Co., Atlanta, GA............    15

PANEL III:
Schroedel, Brigadier General Joseph, Commander, U.S. Army Corps 
  of Engineers, South Atlantic Division, Atlanta, GA.............    19
Hamilton, Mr. Sam, Regional Director Southeast Region, U.S. Fish 
  & Wildlife Service, Atlanta, GA................................    22

                                APPENDIX


Prepared Statements:
Westmoreland, Hon. Lynn..........................................    34
Timmerberg, Mr. Dick, LaGrange, GA...............................    36
Woodworth, Ms. Mary Kay, Executive Director, Metro Atlanta 
  Landscape and Turf Association, Atlanta, GA....................    42
Nichols, Mr. Robbie, Southern Harbor Marina, West Point, GA......    45
Maltese, Mr. Joe, City of LaGrange, LaGrange, GA.................    51
Stevens, Ms. Pat, Environmental Planning, The Department of 
  Comprehensive Planning Atlanta Regional Commission, Atlanta, GA   126
Crisp, Mr. Mark, PE, C.H. Guernsey & Co., Atlanta, GA............   199
Schroedel, Brigadier General Joseph, Commander, U.S. Army Corps 
  of Engineers, South Atlantic Division, Atlanta, GA.............   226
Hamilton, Mr. Sam, Regional Director Southeast Region, U.S. Fish 
  & Wildlife Service, Atlanta, GA................................   237

                                  (v)

  


                    FULL COMMITTEE FIELD HEARING ON 
                      THE IMPACT OF THE 2006-2007 
                      DROUGHT ON GEORGIA'S ECONOMY 

                              ----------                              


                        Tuesday, March 25, 2008

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 12:30 p.m., in the 
Callaway Center for International Business Development, West 
Georgia Technical College, 220 Fort Drive, LaGrange, Georgia, 
Hon. Hank Johnson presiding.
    Present: Representatives Johnson and Westmoreland.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Mr. Johnson. Ladies and gentlemen, I am going to call this 
hearing to order. And I want to first take the opportunity to 
apologize to all of you all for being late here. I know that 
you all have busy schedules and I know that you all are here to 
hear from these fine panelists that we have. I look forward to 
hearing their comments. And so I want to also extend a thanks 
to Congressman Westmoreland and his staff for being very 
dutiful about bringing this panel to you today. My office has 
been pleased to work with his office to make this thing happen.
    Just a note about process. Since the Democrats are in 
control of Congress, that is why it had to be a Democratic 
Representative who would be here to I guess lead this meeting. 
I am a first term Congressman. Congressman Westmoreland has 
been on the Small Business Committee for many years and so it 
is a little odd. But this is the process. And so with that 
process in mind, that is why we have the setup that we have 
today.
    And so the fact that I was late, I am going to not continue 
with the remarks, the opening statements that I had prepared, 
but I do want to turn this meeting over to Congressman 
Westmoreland for his opening remarks and then we will hear from 
the panelists and any questions that we have, we will ask of 
these panelists. And then we will proceed to the panelists on 
the second panel and the third panel as well.
    So thank you for your attention and your attendance and I 
will now turn it to Congressman Westmoreland for his opening 
statement.

             OPENING STATEMENT OF MR. WESTMORELAND

    Mr. Westmoreland. Thank you, Mr. Chairman. You can 
certainly see how important the highway funds are to west 
Georgia now.
    [Laughter.]
    Mr. Westmoreland. Thank you, Mr. Chairman, for holding this 
hearing today and I would also like to thank all the witnesses 
for their participation. I know all of you have very busy 
schedules and feel honored that you would take the time to 
provide this Committee with your testimony. And I am sure that 
today's testimony will prove to be very helpful.
    Georgia's water crisis has been caused by a severe drought, 
by the U.S. Corps of Engineers' mismanagement of river basins 
based on outdated science and population figures, and by water 
wars among Georgia, Alabama and Florida that have been ongoing 
for a number of years. The Corps, under an agreement reached in 
the 1980s with U.S. Fish & Wildlife Service, the State of 
Georgia and downstream users release 5000 cubic feet per second 
or CFs of water, up to 3.2 billion gallons a day, downstream 
into the states of Alabama and Florida. The figure was based on 
hydroelectric power plants' needs as well as concern for 
endangered species in the river. But most importantly, this 
flow of water was based on a consistent schedule of rain.
    I, along with the entire Georgia delegation, have been very 
engaged in this serious ongoing issue. To this end, we 
introduced legislation in the U.S. House of Representatives, 
H.R. 3847, and in the U.S. Senate, S. 2165, to alleviate the 
current water crisis by allowing states suffering from droughts 
to be exempt temporarily from the Endangered Species Act, which 
in Georgia is threatening our low water supply by taking away 
large amounts of water from north and middle Georgia and 
sending it downstream to protect mussels and sturgeon.
    Specifically, the Corps is managing releases out of Lake 
Lanier and Lake Allatoona in a manner that is in the best 
interest of endangered mussels in Alabama and endangered 
sturgeon in Florida, instead of the best interests of the 
people of Georgia. Georgians rely on this water, not only for 
drinking, cooking, bathing and cleaning, but also for 
recreational purposes that creates jobs and grows the local 
economy. Furthermore, we have requested and the Corps has 
agreed to update the 20-year old water control plan for the 
Alabama Coosa-Tallapoosa and the Apalachicola-Chattahoochee-
Flint river basins that runs throughout Georgia, Alabama and 
Florida.
    The current releases of water from these two basins are 
based on science and population figures that do not reflect the 
tremendous growth and modern day needs of Georgia. We have also 
requested that the Corps start from scratch when compiling the 
plan manual for the ACF Basin and not use the Corps current 
flawed interim operating plan as a baseline for the new manual. 
It is imperative that we update the water control plan to 
reflect 21st century water demand and uses in Georgia, Alabama 
and Florida and to bring about a resolution among the states to 
see that the threat to our Georgia lakes is stopped.
    Recently, it was announced that there are changes planned 
regarding the Corps' operation in Georgia that will allow us to 
put aside additional water during the unprecedented drought. 
The Corps, in consultation with Fish & Wildlife, announced that 
they had drafted an interim operating plan that reduced the 
minimum flow from Woodruff Dam at Lake Seminole to 4750 cubic 
feet, a five percent reduction. Subsequently, another ramp down 
to 4500 CFs will be authorized, a total of 10 percent 
reduction. Unless the federal reservoirs recover drastically 
due to improved conditions, these lower water flow levels will 
be implemented through June 1, 2008.
    The plan would also allow reservoirs such as West Point 
Lake to store additional in-flows above 5000 CFs. The Corps' 
releases are designed to provide enough water flow for human 
use and to sustain these endangered species. I believe this is 
a small step in the right direction to deal with a problem that 
immediately confronts us.
    Mr. Chairman, in some way this drought has affected 
everyone assembled here today and I look forward to hearing 
from our distinguished panels and to continue working with you 
and the rest of the Georgia delegation to address this 
important issue.
    And Mr. Chairman, with that, I look forward to hearing the 
testimony of the panelists.

    Mr. Johnson. Thank you, Congressman Westmoreland.
    We will now move to the testimony from panel one. Each 
witness will have five minutes for their remarks and their 
entire statements will be entered into the record.
    Our first witness is Mr. Dick Timmerberg of LaGrange, 
Georgia.


  STATEMENT OF MR. DICK TIMMERBERG, EXECUTIVE DIRECTOR, WEST 
                      POINT LAKE COALITION


    Mr. Timmerberg. Good afternoon, thank you, sir.
    My name is Dick Timmerberg and I am the Executive Director 
of the West Point Lake Coalition. I want to thank the House 
Committee on Small Business for the opportunity to testify here 
today regarding how the economy of west Georgia in general and 
small business in particular have been unfairly devastated by 
the drought of 2006-2007 and the rigid management practices of 
the Corps of Engineers and U.S. Fish & Wildlife Service.
    In the fall of 2006, $268,000 was contributed by businesses 
and individuals in west Georgia and east Alabama to study West 
Point Lake economically and environmentally. This fundraising 
success strongly demonstrates this area's commitment to West 
Point Lake, its concerns for the future of the lake and its 
recognition of the economic value and importance of the lake.
    The firm of Basile, Baumann, Prost, Cole & Associates, a 
nationally recognized firm in the area of economic impacts and 
recreation, completed an economic study in December of 2007 and 
I am submitting a copy of this study as part of my testimony 
here today.
    Three alternative economic analyses were prepared. Full 
pool is 635. Alternative one was low water levels at or below 
630; alternative two, higher water levels in the range of 630 
to 633 and alternative three was optimal water levels in the 
range of 633 to 635.
    The projected annual economic impact and value of West 
Point Lake at the above three alternatives, I have listed 
below.
    At alternative one, the lake is worth approximately $154 
million a year to the local economy.
    Alternative two jumps up to almost $420 million, an 
increase of almost $266 million.
    And alternative three, optimal, it jumps to $710 million, 
which is a plus of almost $556 million versus alternative one.
    The lake was specifically authorized by Congress for five 
distinct purposes--recreation, sport fishing, wildlife 
development, hydropower, flood control and navigation. Corps of 
Engineers documents state that the initial recreation impact 
level on West Point Lake is 632.5. Now, note that at no time in 
2006, 2007 and the first two months of 2008, a total of 26 
consecutive months, has the average monthly lake level at West 
Point Lake met or exceeded that initial recreation impact 
level. Speaking candidly, the Corps has not been held 
accountable for their management of West Point Lake as 
authorized by Congress. And their track record over the past 26 
months, which has caused severe economic consequences, 
demonstrates a disregard for recreation.
    The lost economic impact from West Point Lake from January 
2006 through December of 2007 ranges between $800 million and 
$1.1 billion. Low lake levels severely affected visitation to 
the lake. For example, at an extremely conservative estimate of 
$100 spent per visitation, our community lost $10 million in 
2007 versus 2006 due to the decline in visitation alone. At the 
risk of stating the obvious, visitation to West Point Lake and 
tournaments decline significantly when there is not a 
dependable lake level, when the lake is unsafe, when people 
lose access to parks and swimming areas and when people lose 
access to the water itself. Equally obvious, when visitation 
declines significantly, the economic value of West Point Lake 
drops drastically and the negative economic impact increases 
substantially.
    Let me turn to a few specific examples of the devastating 
impact on small business. In the interest of time, I am just 
going to tell you that in businesses one to three--and these 
are all lake-related businesses--their revenues were down from 
a low of 30 percent to a high of 75 percent, with one 
individual on boat sales down 100 percent because he had to 
give up his boat distributorship.
    Business four, during the six months between September 2007 
and February 2008, revenues were down $96,000 versus the same 
period last year. Had their average monthly growth rate of 10 
to 20 percent prior to the drought continued, lost revenues 
would have exceeded well over $100,000. To try to minimize the 
losses, they increased advertising by $15,000, repairs to 
damaged stock ran another $12,000, and $3000 in dredging 
expense was incurred in an attempt to keep the ramp open. 
Combined impact of $126,000, and this does not include the loss 
of three bass tournaments, approximately 550 boats or 1100 
fishermen and women, plus the loss of at least 100 boats in 
their year end championship tournament due to the low lake 
levels and the severely limited access.
    Business five, bait and tackle sales were down a minimum of 
48 percent. This is a quote, ``Every credit card I have is 
maxed out and every day I am losing money. I had to take an 
outside job to support my family and tread water long enough to 
hopefully somehow hold onto my store.''
    Business number six, and I quote, ``When I bought this 
store five years ago, it was a dream come true, I finally owned 
my own business. The first three years were successful as we 
improved the building and expanded both our products and 
inventory. Over the past 24 months, due to the drought and the 
low water level, sales have declined an average of 20,000 per 
month and we lost our gas contract. In an effort to stop the 
bleeding, we added a kitchen and began selling biscuits and 
other breakfast items. Finally, I had to seek other full time 
employment and leave my wife and daughter alone in the store. 
The store is currently for sale. If it does not sell, we will 
lose it anyway.''
    So what do the above businesses have in common? All of them 
were successful until the drought and the ill-conceived interim 
operating plan hit, and low, unacceptable water levels dragged 
on for over two years. The small business men and women who are 
the backbone of our country are fast becoming the endangered 
species and no one is protecting them.
    While West Point Lake was drained, water was sent 
downstream to protect endangered mussels. We have quantified 
the economic impact to our community and to small business, but 
I have yet to see the economic benefit or value of the 
endangered mussels. Assuming for the moment that the mussel 
species are viable long term--and that is a huge question--why 
was action not taken to relocate the mussels to a hatchery or 
to re-establish them in a like stream or river? In fact, there 
never was a proactive solution. The response from the Corps and 
Fish & Wildlife was simply releasing water far in excess of 
what mother nature would have provided and with no 
consideration for the dire consequences to the small business 
man and woman. Apparently the use of common sense is also an 
endangered species.
    The federal reservoirs on the ACF--
    [Applause.]
    Mr. Timmerberg. The federal reservoirs on the ACF system 
and the system itself should be managed in a fair and 
proportionately equal manner. The federal reservoirs should be 
managed for their authorized purposes, they should not be 
managed for unauthorized purposes. We support growth and want 
to see a strong and vibrant Atlanta metro area as the main 
economic engine for the state of Georgia. That said, that 
growth must be intelligent growth which is well-planned and 
recognizes the finite limited water supply in the Chattahoochee 
River and acknowledges the economic needs and the right to 
growth for downstream communities as well.
    What we will never support is the transfer of economic 
wealth from one community to another using water as currency.
    We respectfully ask that Congress hold the Corps of 
Engineers accountable to manage West Point Lake as it was 
authorized, so that the lake's economic benefit can be 
realized. We ask Congress to uphold their promises made to this 
community when West Point Lake was planned. We ask that the new 
interim operating plan reflect and prioritize the authorized 
purposes versus the unauthorized needs, while recognizing the 
devastating economic harm done previously and minimizing the 
negative economic impacts in the future.
    Thanks once again for conducting this hearing in LaGrange 
and for giving me the opportunity to testify.
    [Applause.]
    [The prepared statement of Mr. Timmerberg may be found in 
the Appendix on page 36.]

    Mr. Johnson. Thank you, Mr. Timmerberg.
    And ladies and gentlemen, I did not properly introduce Mr. 
Timmerberg, he is the Executive Director of the West Point Lake 
Coalition, a board member of the Middle Chattahoochee Water 
Coalition, a member of the West Point Lake Advisory Council, 
and at the request of the Georgia Environmental Protection 
Division, he has served for two years on the Chattahoochee 
Basin Advisory Committee in Phase 1 of the Georgia Statewide 
Water Planning Process.
    So thank you for your testimony today, sir.
    Next, we will have Ms. Mary Kay Woodworth, who is the 
Executive Director of the Metropolitan Atlanta Landscape and 
Turf Association. Ms. Woodworth.


STATEMENT OF MS. MARY KAY WOODWORTH, EXECUTIVE DIRECTOR, METRO 
             ATLANTA LANDSCAPE AND TURF ASSOCIATION


    Ms. Woodworth. Thank you, Representative Johnson.
    Mr. Johnson. You will have five minutes for your statement 
and your written statement will be included in the record.
    Ms. Woodworth. Thank you very much.
    Yes, I am with the Metro Atlanta Landscape and Turf 
Association and I do not want you to think Atlanta is a bad 
word down here, but more importantly I should tell you I am 
President of the Georgia Urban Agriculture Council.
    Georgia's urban agriculture industry represents one of the 
largest and most successful industries in Georgia, with more 
than $8 billion in annual sales, 7000 companies and more than 
80,000 employees throughout the state. Urban agriculture is 
defined as all non-traditional agriculture and is the second 
largest industry in the state of Georgia, second to poultry.
    The industry includes retail garden centers, 
floriculturists, turf grass and sod growers, the nursery and 
horticulture industry, landscape architects, landscape 
installation and maintenance businesses, irrigation 
contractors, green wholesalers, florists and golf courses and 
their related businesses.
    Georgia's EPD Drought Management Plan uses outdoor watering 
restrictions as the sole solution to address the drought 
conditions that have impacted Georgia. While commercial 
exemptions are contained in the plan, these exemptions can be 
further restricted locally. This action by local utilities and 
governments has had the effect of imposing severe restrictions 
on businesses that rely on water in their operations.
    And in this case, in the last year and a half, these severe 
conditions were primarily imposed on a single industry--
landscaping and horticulture. This is a problem that did not 
have to happen. This was not because of the drought. The 
problems we have had in our industry are because of the water 
restrictions that were resulting from the drought.
    The EPD Drought Management Plan rules and local 
government's heightened restrictions were exacerbated by the 
U.S. Army Corps of Engineers' increased downstream releases 
from Lake Lanier in late summer of 2007. The increased releases 
resulted in Governor Perdue's mandate to water providers to 
release withdrawals by 10 percent. This mandate, along with 
EPD's Level 4 Drought Declaration for 61 counties on September 
28, 2007 had an immediate and dramatic devastating impact on 
the industry statewide.
    Due to the State's actions and the additional whittling 
away of the exemptions by the local municipalities there was 
little to no fall planting season in Georgia and the financial 
impact was felt immediately.
    According to an industry and UGA survey that is dated 
February 2008, there have been more than 35,000 layoffs 
statewide. Between June through December 2007, losses of over 
$262 million per month are directly attributed to drought and 
the ensuing water restrictions. And at this rate, an annual 
loss of $3.2 billion is predicted. Several prominent 
businesses, including Pike Family Nursery, have filed for 
bankruptcy, have been put to auction, closed temporarily or 
permanently or are reviewing their options. Most of this could 
have been avoided had the state developed a drought management 
plan that did not place the entire burden of water conservation 
and outdoor watering and usage on conservation alone.
    Georgia's urban agriculture industry will continue to lose 
profits and employees if drought conditions remain over the 
state this year, according to the UGA survey. UGA's Dr. Ellen 
Bauske reports that ``In an industry with a median income of 
$800,000 per company, most companies won't be able to sustain 
losses of that magnitude. We can expect more news of 
bankruptcies, business failures and liquidation of company 
assets if the situation continues.''
    Based on the survey, Bauske and her colleagues project 
devastating losses in the next few months and coming year. The 
calculated loss of $260 million per month can be contributed 
directly to the drought and the water restrictions that were 
imposed on the industry. If the current drought conditions 
continue, the report is that an annual loss of $3.2 billion 
will occur and an additional 30,000 employees will be losing 
their jobs.
    The frustrating part of this for most of us in the 
industry, and just as you reported, these are small businesses. 
These are not national or international companies that can 
absorb the losses, they are mom and pop companies that have 
been in business for years. It is just frustrating and sad to 
see the companies, good companies, that have gone out of 
business through no fault of their own.
    Governor Perdue has stated that as outdoor water use is 
inconsequential to the state's water picture. Dr. Carol Couch, 
the EPD Director, agrees: ``We are not here because we consumed 
our way into this drought, as some would suggest.''
    Watering bans are little more than an attempt by water 
authorities to divert attention from the failure to adequately 
plan for inevitable drought events. Droughts should never be a 
surprise to water planners. They are a natural element in 
environmental life cycles and should be factored into all water 
management plans. If water is managed properly, a water crisis 
should be extremely rare.
    Using water restrictions and conservation alone ignore the 
root of the problem, rather than address the problem with a 
comprehensive plan that tackles the issues of water supply and 
use. EPD and the authority that is given to local governments 
to ban outdoor water use create the impression that they are 
effectively dealing with the larger issue. For most water 
authorities, this is the most visible action they can take in 
the public eye to communicate a water crisis, by cutting off 
the low hanging fruit, the visible water that is used outside.
    The urbanization and suburbanization of Georgia has been 
enormous, providing jobs, economic opportunities and stability 
for millions of Georgians, but it has also brought problems. 
Urbanization decreases water quality and increases use. About 
one-half of the land cleared or disturbed for development is 
covered by impervious surfaces such as roads, roofs and parking 
lots and that is a contributor to the current crisis. Urban 
agriculture is the best method for addressing these problems, 
while development continues.
    Healthy and properly maintained landscapes are critical to 
water management and storage in an urban environment. Lawns, 
ground covers, vegetation and even hardscapes are crucial to 
managing ground water. Urban agriculture is one of the few 
industries in Georgia that mitigates the environmental impact 
of development and creates a sustainable quality of life for 
people, wildlife and natural systems.
    When drought conditions persisted last spring, Georgians 
responded by conserving water. We were told that by saving 
water, we would be saving money as well. Recent news articles 
in the AJC report that local water authorities must not 
increase fees to make up for revenue lost from reductions in 
water sold to their customers during this drought period.
    The drought has cost Georgians billions of dollars in 
economic loss and now water conservation measures will cost us 
millions more because local water professionals failed to plan.
    Only in a government business plan can you have a decline 
in revenues and maintain or grow your overhead while not going 
out of business. These locally run bureaucracies now insult the 
citizens of Georgia by raising their fees.
    The urban agriculture industry is committed to being an 
active partner in Georgia through its crisis. We will continue 
to work with the state and local water authorities as they 
search for solutions to developing problems. But we must insist 
that the state address the lack of water infrastructure, 
including water storage needs, so it will not become necessary 
to address a future water crisis on the back of our industry. 
We hope that we have your support in our mission.
    Thank you again.
    [Applause.]
    [The prepared statement of Ms. Woodworth may be found in 
the Appendix on page 42.]

    Mr. Johnson. Thank you, Ms. Woodworth.
    And ladies and gentlemen, I also failed to properly 
introduce myself. I am Congressman Hank Johnson, I represent 
Georgia's Fourth District, which is DeKalb County, about 80 
percent of Rockdale County. Congressman Westmoreland represents 
the other 20 percent and also represents part of Gwinnett 
County.
    So I want to at this time turn it over to Congressman 
Westmoreland, who will introduce our next panelist.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    Our next panelist is Robbie Nichols. He and his wife Lisa 
live on West Point Lake. Robbie's been in the banking business, 
the real estate business and now he is in the marina business. 
He is the owner of Southern Harbor Marina where he and his wife 
both live. He has been involved in development around the lake 
and he has lived the real experience of these lake levels going 
up and down.
    So, Mr. Nichols, it is a pleasure that you are here and we 
look forward to hearing your testimony.


    STATEMENT OF MR. ROBBIE NICHOLS, SOUTHERN HARBOR MARINA


    Mr. Nichols. Thank you. Thank you for the opportunity to 
speak to you on behalf of the marina and small business owners 
in west Georgia and east Alabama.
    Several of the purposes of West Point Lake authorized by 
Congress are sport fishing, wildlife development and public 
recreation. In my opinion, none of these purposes have been 
fulfilled. The water levels must be maintained in the lake so 
the public can use it safely. Let us not forget that Corps 
funding is based upon, to some degree, traffic count and 
visitation.
    I would like to thank those of you in Congress that have 
supported H.R. 4304, which allows our Corps of Engineers to 
retain revenues generated by public parks and campgrounds. 
However, no amount of public facilities can truly be justified 
when water levels have reached unsafe conditions for the 
boating public.
    From my own experience at the marina, revenues from January 
through July were 20 percent ahead of the previous year. 
Revenues for August were slightly lower, but I do not think 
anyone quite anticipated that Labor Day would be the end of our 
season. September through December 2007 store sales were 50 
percent off, lodging revenues 35 percent, boat rentals 60 
percent, and damages to those boats exceeded $5000. Our wet 
slip revenues were down only three percent due to the fact that 
I had a dozen boats stuck in the mud and many others that would 
have left if not for inaccessible ramps. As the water level 
decreased and dock flotation settled into the mud, the marina 
spent over $80,000 in dock extensions, electrical connections 
and additions to our sewer pumpout facilities. These were all 
out-of-pocket expenses.
    Another impact felt this fall was low tournament turnout 
and the cancellation of several large fishing tournaments, 
resulting in a negative economic impact to our community of 
well over a million dollars.
    The Governor of Georgia has announced a new ``Go Fish 
Georgia'' program. The program is intended to promote fishing 
and tourism and to bring people in from all over the southeast. 
The problem with ``Go Fish Georgia'' is that it just may be a 
card game we will be playing, the deck stacked against us by 
outdated operating plans and lake levels we cannot depend on.
    You have asked me to speak on my perspective and those of 
my business associates as to the economic impact of the 
drought. Well, I am here to say that it is the opinion of many 
that the drought is being used as an excuse for ineffective and 
outdated water control plans.
    [Applause.]
    Mr. Nichols. The West Point Lake Advisory Committee has 
been addressing the economic impact of lake fluctuations in 
West Point Lake, including the predicted drought conditions 
that we are now experiencing. This information was conveyed to 
state and federal agencies over a year ago. It was not until 
Atlanta was threatened with the possibility of running out of 
drinking water did our concerns become front page news. The 
Governor only then mandated a 10 percent reduction on all water 
use across the state. For those of us who live outside the 
doughnut, we do not have a problem with reducing water usage 
and trying to conserve more. But what we do not hear about are 
the restrictions in development and growth in Atlanta. So in a 
simple man's math, it appears that our 10 percent reduction is 
just allowing the growth in Atlanta to continue and not 
necessarily doing a whole lot to put the water back in our 
lake. Unlike Atlanta, all we have asked for is shared 
sacrifice.
    As to the growth, the state of Georgia has invested $500 
million to bring an automobile plant to Georgia. Besides 
financial incentives, companies today value the quality of life 
offered to its employees. West Point Lake is a major factor in 
those decisions. In fact, one Kia executive new to our area 
asked ``Is your lake broke?'' And my only response was, ``No, 
sir, our lake is not broke, but the system that controls it 
is.''
    [Applause.]
    As for the system I refer to, I am not sure who is in 
charge. The Corps of Engineers points the finger at Fish & 
Wildlife and they point the finger back. It appears to me what 
we have done is pass so many laws and created so many 
bureaucracies that common sense has become extinct. The system 
needs to be simplified, agencies need to work together so that 
there is accountability within the decision-making process. 
There needs to be flexibility to adapt to ever-changing 
conditions.
    In closing, I do not mind competition. I compete with the 
Wal-Marts, Bass Pro Shops and others who by their sheer size 
can sell for less than I can buy most goods for. The advantage 
I have is you cannot get there by boat. Do not take that away 
from us.
    [Applause.]
    [The prepared statement of Mr. Nichols may be found in the 
Appendix on page 45.]

    Mr. Johnson. Now that I have got the gavel, I can swing it 
a little bit when you all clap a little bit too much.
    But listen, I want to thank this panel for your time, I 
want to thank you for your testimony. The Committee will likely 
follow up with written questions for the record. And we will 
now call upon our second panel. Thank you very much.
    [Applause.]

    Mr. Johnson. And while the second panel is coming forward, 
I will say that Congressman Westmoreland's staff has been 
working on this Small Business Committee field hearing for the 
last few months and it has been my pleasure to work with your 
staff in making this happen. And you also promised me that you 
would show me some great fishing holes when I came down here, 
but you are not dressed for that today. So we will have to make 
it a different time. And I look forward to coming back and 
learning more about this area of our state.
    Next, we have on our panel three individuals. The first is 
Mr. Joe Maltese. He is an assistant to the City Manager of 
LaGrange, Georgia and at this time, I will advise all of you 
that you have five minutes for your opening statements and your 
entire written statements will be entered into the record.
    So at this time, I will ask Mr. Maltese to begin his 
testimony.


   STATEMENT OF MR. JOE MALTESE, ASSISTANT TO CITY MANAGER, 
                       LAGRANGE, GEORGIA


    Mr. Maltese. Thank you. Allow me to begin by thanking the 
Committee, its members and the Congressional staff that worked 
so hard to arrange for this hearing in LaGrange. It is an honor 
for this community to have this body here to listen to our 
concerns.
    Let me also note we have a great appreciation for those 
that serve in the United States Corps of Engineers. While we 
have disagreements with them from time to time over operations 
along the river, you must always know that we are proud of 
their service to this nation. We are also honored to have U.S. 
Fish & Wildlife representatives here today to participate in 
these hearings. However, we do not agree with or appreciate 
these agencies' approach to managing the river system, 
especially West Point Lake.
    In 1962, the United States Congress authorized the Corps of 
Engineers to build a reservoir above West Point, Georgia for 
five purposes--sport fishing and wildlife development, flood 
control, hydropower, general recreation and navigation. As the 
lake was built, the Corps immediately established and has 
historically utilized a system of very aggressive rule curves 
and action zones to guide their management of water elevations 
at West Point Lake. In doing so, the Corps set aside massive 
amounts of storage and attributed that space for other purposes 
and demands elsewhere on the river. This unused capacity left 
the lake empty for much of the year. Yes, we agree the Corps 
must provide for essential flood control, but they failed to 
utilize the full capabilities of the lake.
    Over the past two years, we have watched as the Corps 
systematically drained the entire basin during the onslaught of 
the worse drought we have ever seen. While there was a drought 
and the lakes would have been at somewhat lower levels, we 
believe West Point Lake would have remained at far more usable 
elevations with reasonable levels had the Corps not engaged in 
utilizing the damaging IOP to guide its operations.
    In the springtime when West Point Lake needed a recharge 
with nature's rains, the Corps sent vast amounts of water 
southward downstream to the Gulf of Mexico, with U.S. Fish & 
Wildlife Service's blessing, and drained the lake so that 
sturgeon could spawn on the Apalachicola River at a time when 
the lakes desperately needed to refill. Remember, the sturgeon 
and mussel existed long before there were any federal lakes on 
the Chattahoochee and to presume they cannot exist after 50 
years of a regulated system is, at best, highly questionable.
    The drought worsened, but the Corps continued to drain 
first Lake Walter F. George, then West Point Lake and finally 
Lake Lanier throughout the spring and summer. The Corps says 
they have always had a flow of 5000 cubic feet per second or 
greater from Jim Woodruff Lock and Dam onto the Apalachicola 
River. And I think we all know that mother nature does not 
offer guarantees in writing with a five followed by three 
zeroes at any given point on the river, especially when totally 
inflow into the ACF basin above that point is almost half that 
amount. So the Corps made up their guaranteed flows from 
federal lakes that were not designed or authorized to provide 
flows for thermo electric power plants or sturgeon or mussels.
    To make matters worse, instead of shutting the valve off 
immediately after meeting its flow demand for the Apalachicola, 
the Corps with Fish & Wildlife blessing again, extended the 
drawdown from lakes using a gradual ramp down rate that often 
lasted days. This was to protect mussels from being stranded on 
the banks. It would seem far more logical to turn the faucet 
off when you are done rather than draining the federal lakes. 
But the so-called IOP, interim operating plan, provided for a 
concept that we would scold our children for if we saw them 
using this practice at home. In the meantime, the three 
northern federal lakes continued to drain and disappeared while 
the drought worsened.
    Our frustration as a community is that the authorized uses 
for West Point Lake that would yield the most economic benefit 
and were associated with the highest level of expectation in 
our area, based on commitments made by the government, seem 
largely ignored. We see a Corps of Engineers overly concerned 
about flow needs for thermo electric power generation for Plant 
Scholz and Plant Farley, industrial needs and waste 
assimilation flows and fish and wildlife to our south on the 
river. We were never told this lake would be taken away and 
used for those needs. All we knew was that West Point Lake and 
Lake Lanier disappeared and Southern Company's Georgia Power 
lakes on the river within ten miles of West Point remained full 
all summer long.
    When West Point Lake was filled and began operations in 
1974, the citizens that rely on West Point Lake took the 
federal government at its word. Remember, West Point Lake was 
promised to the community as a recreational lake, yet the Corps 
decided to make West Point what they term ``the workhorse of 
the basin''. Somehow, this lake was taken away from us. We 
think we know where the water is going and who is getting it. 
We beg that our Congress intervene and assure that West Point 
Lake is returned to the hundreds of thousands of citizens and 
businesses in the growing west Georgia and east Alabama area 
and that a promise made for a recreational lake to the citizens 
of this area is fulfilled. Please see the Corps stops using 
West Point as a workhorse lake and that those responsible for 
the management of this lake return it to its authorized uses.
    Thank you.
    [The prepared statement of Mr. Maltese may be found in the 
Appendix on page 51.]
    [Applause.]
    Mr. Johnson. Thank you.
    Our next witness is Ms. Pat Stevens, who is the Chief of 
the Environmental Planning Division of the Atlanta Regional 
Commission. Ms. Stevens.


                  STATEMENT OF MS. PAT STEVENS


    Ms. Stevens. Thank you, Congressman Johnson.
    I want to highlight four points in my testimony.
    One is that I think there is a major misunderstanding about 
the capabilities of headwater lakes in major river basins like 
this.
    Two is that the Corps obviously clearly exacerbated the 
impacts of our recent drought.
    Three, and my focus primarily is on the Lake Lanier area, 
the Atlanta area; Lake Lanier today is at it lowest point for 
any March 25 that it has been at for the history of that lake 
since it started normal operations. And we are very concerned 
that if the past operations of the last two years resume this 
summer, we will be not only back where we were last summer, but 
it will be much, much worse. So we are very concerned about 
that.
    And fourth, we do want to voice support for the recent 
announcement by the Corps of Engineers to update their water 
control plan.
    So let me talk a little bit about the misunderstanding when 
it comes to headwater lakes. You can see by the map that is up 
there, the land area above Lake Lanier is only five percent of 
the entire land area in the Apalachicola-Chattahoochee-Flint 
Basin. And what that means is--it only controls, even though it 
is a large lake, it only controls nine percent of the flow in 
the whole basin.
    West Point Lake is similarly situated. It only controls 15 
percent of the land area that drains into it. This means that 
most of the water that falls on the ground and flows to the 
state of Florida, cannot be controlled by these lakes. So when 
you try to take the water that is in these lakes, even though 
they are large lakes, there is not much water flowing through 
them. If you try to use these lakes to make up for a large 
river, 400 miles south, you can release that water for a short 
time but then you will drain the lakes and everybody will be 
out of water. We were on a path last year to do that. As the 
lower reservoirs were drained, the major releases for the 
Apalachicola River were from Lake Lanier. The flow at Lake 
Lanier is usually about 2000 cubic feet per second, the flow in 
the Apalachicola is somewhere in the vicinity of 20,000 cubic 
feet per second. So 60 to 80 percent of all the water that was 
being delivered to the state of Florida was coming out of a 
lake that only controls nine percent of the flow. And you 
cannot do that for very long. And that is a big problem.
    Even though we have had low river levels, the Corps of 
Engineers' operations have exacerbated the impact of the 
drought and we talked about that, the interim operations plan 
was developed under threat by the state of Florida against the 
Corps of Engineers over endangered species. It was developed 
without good science. During May through November 2007, 100 
percent of all the water that flowed through the reservoirs in 
Georgia, was passed on to the state of Florida and 75 percent 
of all the water stored in these reservoirs was passed on to 
the state of Florida. In the face of drought, all that means is 
you are on a path to emptying the reservoirs. Lake Lanier, 
there are three million people that depend on that lake for 
water supply. We have heard a lot about the jobs that depend on 
West Point Lake. And so we need to make sure that does not 
happen again.
    The Corps recognized the danger that was coming. In 
November of 2007, they changed their operations, they adopted 
emergency drought operations and it really has helped the lower 
lakes recover, but Lake Lanier has not recovered. So our main 
concern is we cannot go back to that way of operating. The 
trigger that they have got in the emergency drought operations 
plan is for it to be withdrawn June 1. Without the recovery of 
Lake Lanier, if they go back to the old way of operating, they 
can drain the lower lakes again and then we will be so much 
worse off. So we ask that that not happen.
    Economic impacts. The level of Lake Lanier is related to 
economic impacts in the metro Atlanta area. Recreation is a big 
business around Lake Lanier. There are similar impacts up there 
that you have heard about at West Point Lake. The water systems 
have had to cut back their water usage. Just the major ones 
have $50 million in losses that they are going to have to 
recover and raise rates because of. And we heard about the 
impact on the landscape and garden industry. That is a huge 
industry in metro Atlanta. There have been thousands and 
thousands of people laid off because of that.
    And finally, I would just like to say, we are ready to move 
forward. We support the Corps updating their water control 
plan. The group of water providers in the metro area have hired 
consultants to give other options for operating these systems. 
We think there are better ways to operate.
    We ask that the Corps do a three step plan. One is to 
continue these emergency drought operations until Lake Lanier 
recovers. Lake Lanier is in serious decline right now and so we 
are very concerned about that.
    And to not ever go back to the interim operations plan. 
Two, come up with a new temporary operations plan until the 
water control plans can be updated, because that will take 
years. We just cannot go back to the way the interim operations 
plan was. And so that is what we are asking and we stand ready 
to help with that effort in any way we can.
    [The prepared statement of Ms. Stevens may be found in the 
Appendix on page 126.


    Mr. Johnson. Thank you, Ms. Stevens.
    [Applause.]
    Mr. Johnson. Our next witness is Mr. Mark Crisp, who is 
managing consultant with C.H. Guernsey & Company, which is an 
engineering consultant firm engaged by the City of LaGrange and 
by the West Point Lake Coalition.
    Mr. Crisp.


   STATEMENT OF MR. MARK CRISP, PROFESSIONAL ENGINEER, C.H. 
                       GUERNSEY & COMPANY


    Mr. Crisp. Thank you. Good afternoon, Mr. Chairman, 
Congressman Westmoreland.
    For many years, the Apalachicola-Chattahoochee-Flint River 
Basin has operated with minimal conflicts and relatively good 
availability of water through natural rainfall. However, during 
the last 20 to 25 years, our climatology has seen a significant 
change. For the greater part of the 20th century, our 
climatology experienced robust and extensive wet seasons during 
the months of December through April with additional 
contributions of rainfall during summer thunderstorms that 
occurred almost daily across much of the southeast, including 
Georgia. However, starting in the early 1980s and continuing 
today, our climatology has shifted to a more arid condition. A 
critical and significant factor in the Corps' operation of West 
Point Lake has been the extremely negative effect caused by the 
U.S. Fish & Wildlife Service's biological opinion and the 
Corps' interim operation plan initiated in the ACF Basin during 
the spring of 2006, during this drought period.
    During the time period from 1980 through the present, the 
ACF has experienced three major droughts. The drought of 1981, 
the droughts of 1986 through 1988 and the current drought that 
actually started in 1998 and continues today. Many 
climatologists and meteorologists claim that the current 
drought is a separate cycle from the one initiated in 1998. 
However, only a cursory level examination of rainfall data for 
this region for the period 1996 to 2007 clearly indicates that 
we never escaped the vise of the drought started in 1998.
    At the same time as the onset of our current more arid 
weather cycle, the southeast and particularly metro Atlanta 
region, was experiencing unprecedented growth in population. 
The conflicts started to arise between Congressionally 
authorized purposes of the projects and those uses that were 
seen as beneficial. These conflicts generated the now infamous 
water wars that have been going on for the better part of two 
decades through at least two administrations in the affected 
state houses and continues today with little hope at the end of 
the tunnel.
    As early as 2002, the U.S. Fish & Wildlife Service and the 
Corps of Engineers initiated informal discussions concerning 
several species of freshwater mussels and the Gulf sturgeon. 
Fish & Wildlife was in the process of declaring some of the 
mussels and the Gulf sturgeon as endangered, per the Endangered 
Species Act. The entrance of U.S. Fish & Wildlife and the ESA, 
Endangered Species Act, brought a whole new dynamic to the 
escalating water wars. With little to no well-defined 
objectives or performance matrices, the ESA has allowed Fish & 
Wildlife to dictate to the Corps how much water must be 
released downstream of the Jim Woodruff Dam during any seasonal 
period with little regard for upstream users.
    At this point, we now have major droughts, escalating water 
demands in the upper region of the ACF, competing use issues 
for reservoir storage other than Congressional authorized uses, 
three states competing for a share of the pie and Fish & 
Wildlife playing the nuclear option in the lower part of the 
basin. Unfortunately, West Point Lake sits squarely in the 
middle.
    Due to the political pressure to maintain reservoir 
elevations and support water supply at Lake Lanier, which is 
operated more as a backstop by the Corps to protect the system. 
Only if everything else fails will Lanier be looked at as a 
resource to meet downstream needs, even with the conservation 
storage that exceeds West Point Lake by nearly a million acre 
feet, nearly three and a half times what Lake West Point has in 
it. With West Point Lake in its location, it is an easy target 
for the Corps to use, as recently referred to by the Corps as 
the workhorse of the system. However, in this case, this 
workhorse is being turned into the mistreated sway-back nag due 
to over-use, rapid and repeated fluctuations in elevation and 
excessive drawdowns to support functions Congress never 
anticipated nor studies ever supported.
    The nuclear option played by the U.S. Fish & Wildlife that 
initiated the development of the biological opinion and the 
interim operating plan has created havoc with regards to the 
operation of West Point Lake during 2006 and 2007. Inasmuch as 
the plan called for the release of huge volumes of water into 
the Apalachicola River from Jim Woodruff project, the 
environmental assessment performed by the Corps did not 
effectively investigate the impacts it would have on upstream 
storage projects, particularly West Point Lake.
    The Corps and Fish & Wildlife's zeal to accomplish some 
change during a period of extreme drought and intense 
negotiations between states typifies the current philosophy 
employed in the federal negotiations and failed compact 
discussions, let us find an answer and then we will develop the 
science to justify the answer. Unfortunately for the Corps and 
Fish & Wildlife, this drought turned into the drought of record 
and the extreme demands placed on West Point Lake drained it to 
its lowest elevation on record. So low that the Corps made the 
decision that it could not afford to draw West Point any 
further. Therefore, they had to turn to Lake Lanier in order to 
meet flow requirements of the IOP in the Apalachicola River. 
This action subsequently drained Lake Lanier to an all time 
record low that now appears to be unrecoverable this spring. 
All for the sturgeons and mussels that to date no one can tell 
you quantitatively that the massive releases of 2006 and 2007 
has done any good to restore habitat or population.
    The Corps has claimed the IOP only accounted for 0.5 feet 
of the drawdown of West Point Lake during 2007. However, if you 
compare the operational results, such as reservoir elevations 
and releases, during the drought of 2007 and that of the 
drought period in 2000, it is easy to see that the Corps held 
the reservoir elevations much higher during previous droughts 
while meeting the downstream demands.
    The major change between that drought and this one was only 
four inches of rainfall less during this whole annual period of 
2007 and the implementation of the IOP. Therefore, the IOP did 
cause significant worse conditions than the 0.5 foot drawdown 
at West Point as alleged by the Corps. If the Corps had taken a 
more aggressive and conservative approach to water management, 
knowing we were in the midst of a multi-year drought of 
significance, West Point could have been sustained at levels 
well above 630 well into the summer of 2007. Lake Lanier could 
have been held higher and releases into the Apalachicola River 
downstream of Woodruff could have been sustained at levels 
greater than those that were naturally produced, but much less 
than the grossly exaggerated flows required by the IOP.
    Had the Corps been manning the rudder, tracking rainfall, 
tracking climactic conditions and reservoir response, the 
devastation caused by an ill-conceived plan such as the IOP 
would not have been exacerbated by the drought. Entering the 
summer of 2006, West Point Lake's elevation was 631.3, nearly 
five feet below the summer pool. This equates to over one foot 
below the recreation impact level, where opportunities for 
recreation are severely impacted. I must remind you that 
recreation at West Point Lake was specifically and deliberately 
authorized by Congress and intended to be a significant part of 
the overall operational plan, not just an ancillary benefit to 
be available only when the Corps found it convenient.
    Beginning in May of 2007, West Point started a precipitous 
fall that did not end until the lake reached a near historic 
low in early winter at an elevation of 621.75. However, as also 
can be seen, the reservoirs at Lanier and West Point were 
managed very deliberately between two droughts. During 2007, 
Lanier was held much higher into the winter than in the 
corresponding 2000 drought, while West Point Lake was dropped 
to its near historic level.
    It is clear from Corps data that Lake Lanier elevation in 
2007 was maintained higher than 2007 even with somewhat lower 
rainfall and unfortunately Lake West Point was placed in the 
untenable position by the Corps, it was looked at as described 
by the Corps as the workhorse and drained.
    What could have been done? During 2007 in the midst of the 
worst drought, the basin in-flow during winter and early spring 
of 2007 was producing flows in excess of the 5000 CFs minimum 
flow requirement. The Flint River by itself was producing 5000 
CFs minimum flow. In some cases, basin inflow during that 
period exceeded 35,000 CFs. However, due to the overly 
aggressive nature of the flow requirements of the IOP and the 
fact the Corps and Fish & Wildlife did not anticipate nor track 
the evolving drought, nearly all of the available water was 
flushed through the system as required by the IOP, without any 
regard for refilling of the reservoirs.
    In fact, if a more conservative approach had been taken, 
there would not have been such a rush to judgment about the 
loss of mussels due to stranding, the flows would have been 
less variable but still sufficient to support sturgeon. It is 
clear the IOP has been and continues to be a significantly 
detrimental tool employed by the Corps and Fish & Wildlife in 
the name of endangered species.
    The Corps performed a perfunctory environmental assessment 
and subsequently issued a premature finding of no significant 
impact. However, the Corps' alternatives did not examine the 
impact of a severe drought, did not examine the effects of 
ramping, did not examine in detail the economic and social 
damage that the IOP would cause upstream, and did not examine 
other options available to sustain viable species communities.
    Mr. Chairman, this concludes my testimony. I again 
appreciate the Committee taking time to convene the field 
hearing and I stand available for questions.
    [The prepared statement of Mr. Crisp may be found in the 
Appendix on page 199.]

    Mr. Johnson. Thank you, Mr. Crisp.
    In the interest of time, we are going to proceed on to our 
third panel. We do appreciate the testimony of the persons on 
the second panel and you will probably receive questions from 
the Committee, written questions, for your response so that we 
can include those in the record. Thank you very much.
    [Applause.]

    Mr. Westmoreland. Mr. Chairman.
    Mr. Johnson. Yes, sir.
    Mr. Westmoreland. Mr. Chairman, due to the limited amount 
of time that we have for these hearings today, and we are only 
able to hear from a limited number of the stakeholders that are 
affected by this drought and by how the Corps has managed the 
basin, for that reason, Mr. Chairman, I have written testimony 
from some of those affected stakeholders that I would like to 
submit for the record and I would also ask for unanimous 
consent to keep the record of this hearing open for five 
business days so that people can revise and extend their 
remarks based on what they have already heard and what they 
will continue to be hearing today from the General and Mr. 
Hamilton.
    Mr. Johnson. Yes, sir, without objection, so ordered.

    Mr. Johnson. And we will now proceed with testimony from 
our third panel. Who we have here today is Brigadier General 
Joseph Schroedel, who is Commander of the U.S. Army Corps of 
Engineers, the South Atlantic Division based in Atlanta, 
Georgia. And also we have with us today Mr. Sam D. Hamilton, 
who is the Regional Director, Southeast Region, U.S. Fish & 
Wildlife Service, Atlanta, Georgia.
    Gentlemen, welcome today. You have five minutes for your 
testimony. Your written statements will be included in the 
record. Thank you very much for coming.
    We will start with General Schroedel.


  STATEMENT OF BRIGADIER GENERAL JOSEPH SCHROEDEL, COMMANDER, 
     SOUTH ATLANTIC DIVISION, U.S. ARMY CORPS OF ENGINEERS


    General Schroedel. Thank you, Mr. Johnson, Mr. 
Westmoreland.
    It was suggested today that I was a three and a half point 
underdog on an away game. I appreciate the warm welcome because 
America loves underdogs. So it is great to be here.
    [Laughter.]
    General Schroedel. Members of the Committee, I am Brigadier 
General Joe Schroedel, Division Commander, as you have said, of 
the South Atlantic Division of the Corps. I oversee the 
management of 13 basins here in the southeast.
    I appreciate the opportunity to testify before you today 
and to engage the concerned citizens of this great community on 
our precious water resources. I would also like to take a 
moment, if I can, to thank all of you as American citizens for 
your support for the ongoing war, and especially for support to 
our American military, my own son included who is in 
Afghanistan at the moment, and for the civilians, approximately 
800 Corps of Engineers civilian volunteers who are deployed 
around the world also supporting this nation's national 
objective. So I appreciate the support that you have given to 
your sons and daughters and husbands and wives who are 
supporting that effort. I think that is an important thing to 
do.
    [Applause.]
    General Schroedel. Gentlemen, in my testimony today what I 
would like to do is emphasize just two simple points. The first 
is the Corps response to this record drought in order to 
demonstrate our flexibility and our lack of rigidity. And 
secondly, I would like to highlight, if I can, what is really 
more important than trying to agree on the past. And that is 
looking forward to the future as one team, one group of 
American citizens who are faced with an ever-changing climate 
and we have got to know how to deal with that in a more 
responsive way.
    So I would like to highlight in that regard the importance 
of the public's participation, each and every one of you here 
and those who are not here, to get the word out that the entire 
public has got to participate in the Corps' updating of our 
manual. That is an open, public process and if you want the 
rule curves changed as we do, then you need to participate. 
That is my second point that I will cover a little bit today. 
So our future success depends on every citizen in this region.
    The Corps of Engineers generally constructs and operates 
multi-purpose water resource projects and manages those 
projects within a watershed as a system, irrespective of 
political boundaries. The authorized purposes for the ACF and 
ACT systems are flood control, hydropower, navigation, water 
supply, water quality, recreation and fish and wildlife 
conservation. And we have got to balance all of those needs. 
Our day-to-day operation of our multi-purpose projects is 
guided by our water control manuals and seeks to balance those 
often competing purposes.
    During this drought, the competition for limited water 
resources has been magnified and our management of the system 
has adjusted to meet the harsh conditions that mother nature 
has presented us. For example, by the way, if we were 
mindlessly following our guide curves, West Point Lake would be 
seven feet lower than it is today. I think that is proof enough 
that we are not mindlessly, rigidly following some kind of 50 
year old manual. We are not doing that. This lake is not even 
that old.
    So what have we done to help manage the conditions of the 
drought? Well, let me just list a few and I will cover a few of 
them in detail.
    First, I have authorized--and I have the authority--I have 
authorized deviations on virtually every lake under our control 
in the southeast. We have accepted greater risk by doing that, 
greater risk in terms of flood control capacity, but we have 
done that throughout the southeast to conserve water in our 
system.
    Second, you have heard a lot about the interim operation 
plan. And we suspended key features of that almost a year ago 
and we have been managing the system in a more flexible way, as 
I mentioned. We developed the exceptional drought operations 
plan, which you have heard a little bit about, which was 
intended to conserve more water in the system, and it has done 
that. Again, today West Point Lake is three feet higher than it 
normally should be at this point of the year and it is only two 
feet away from summer pool and it is not even April yet. So I 
think that demonstrates our flexibility.
    About a year ago, I personally went to--
    [Laughter.]
    General Schroedel. I will be glad to talk to you 
afterwards.
    About a year ago, I personally went to Governor Perdue and 
to Governor Riley and suggested that it looks like a major 
drought, that this drought was going to get worse, and 
suggested that we host a drought summit, we did that. And we 
have since conducted on the ACF biweekly teleconference calls 
that average 50 to 60 people wide open to the public, members 
of the Congressional staffs, yours included, participate. And I 
will tell you that the majority of the witnesses you have seen 
before you today also personally participate in those calls. It 
is important that everyone know about that because on those 
calls, we announce our impending decisions and adjustments to 
the system ahead of time in order to allow--I am talking weeks 
in advance--in order to allow the public to comment on the 
decisions that we are about to make. We have had that going on 
now for almost a year on both the ACT and ACF.
    We have also done quite a bit of work to try to manage the 
hazards that have presented themselves here at West Point Lake. 
We have spent thousands of dollars helping to mitigate those 
hazards. We have also done a lot of engagement with the public. 
Somebody commented to me earlier today that it is a shame we 
have to have the members of Congress invite me here in order 
for me to show up. Well, I will tell you what, I will come down 
any time and I have asked all of my subordinate leaders to 
engage the community and I usually check that. But I would 
personally welcome the opportunity to come back and do a town 
hall with all of you and maybe we could take more time and 
dispel some of the other myths that are out there. I would love 
to do that.
    On the ACF, in September of 2006, we implemented the 
interim operating plan, which provided for target flows to 
support endangered species under differing hydrologic 
conditions. And by the way, during the recent negotiations 
between the three states, there was one true point of agreement 
that I think we got them all to agree to. They all hated the 
IOP. So that was a good thing.
    [Laughter and applause.]
    General Schroedel. With the extreme conditions of the 
summer of 2007--and this drought hit hard and fast. If you look 
at the conditions in about July, you will find that we were on 
a fairly normal path, even with the drought. Let me tell you 
something that was very different that had never happened 
before and we had never experienced before, starting in about 
July and August, which changed the conditions dramatically. We 
had never experienced negative inflows into the system. USGS 
has stream gauges in every stream and believe it or not, there 
was more water leaving the system through evaporation than was 
actually coming into the system. That had never occurred before 
and that was why we hurried up and responded to try to change 
our system.
    The biological opinion under which we are operating expires 
June 1, 2008. We are currently revising our exceptional drought 
operations plan and IOP and then putting together a biological 
assessment which we will deliver to the Fish & Wildlife Service 
by mid-April for them to do a biological opinion by 1 June so 
we can adjust both the IOP and EDO. Cannot give you specifics 
right now, but I will tell you we have listened to the states, 
we have listened to the stakeholders. Everything I just said to 
you has been announced on those drought calls every other week 
when we hold those calls. So that is not new information, we 
have been working that for some time.
    As the situation stands, it would appear that we could be 
entering the spring and summer season with the lowest amount of 
storage ever on the ACF basin. Lake Lanier, as you heard, is 
about 15 feet below the summer pool. West Point Lake will be at 
the summer pool very soon. So we feel that we have got the 
southern part of the system in pretty good shape. By the way, 
that is a function of where the rain is falling.
    As conditions deteriorated in the spring of 2007, as I 
mentioned, we conducted the drought summit and then began our 
drought calls to immediately engage the public, to listen to 
the public, and to be very wide open and transparent about the 
decisions we were about to make on the system. So in that 
regard, I would like to emphasize that open and continual 
communication between the Corps, between other federal agencies 
and you the public is imperative. We have got to know what you 
are thinking.
    Our coordination with federal agencies is also very 
important. Not only do we rely on our relationship with the 
Fish & Wildlife Service, but we also rely on the United States 
Geological Service. Just so you know, all of our lake level 
gauges, all of the stream gauges are not Corps gauges, they are 
USGS gauges. So we get independent measures of what is going on 
in the system that we use to manage the system. We also rely on 
NOAA for forecasts, both short term and long term forecasts. 
And I will tell you, nobody saw what happened in late summer 
last year coming. La Nina aside, nobody saw conditions of 
negative inflows ever being a reality. And it was and it hurt 
the system pretty quickly.
    Last comment that I would make is regarding the manuals. 
Water challenges are here to stay. And as I mentioned earlier, 
we need everybody to participate in that wide open process.
    I would like to make one other very strong point. As you 
all know, the states, these three states on these two systems 
did not come to an agreement on the allocation of water between 
the states. The water control manuals will not resolve that 
problem. That is a state right, that is a state issue and the 
water control manuals will not ever--not ever--resolve the 
allocation of water between states. That is a separate issue. 
We are just in the beginning of the process and I would invite 
each of you again to participate in that process and let us all 
get together and look forward and ensure that as climate 
changes, as economy changes, as the population changes, that we 
all figure out the ways out of these situations and not waste 
our time and our energy pointing fingers and trying to figure 
out who did what to get where we are. That is not what is 
important.
    Again, I appreciate the opportunity for your support and I 
look forward to answering your questions. I also look forward 
to spending more time if I can with this community in addition 
to my District Commander who is responsible for this lake.
    Thank you, sir.
    [The prepared statement of Brigadier General Schroedel may 
be found in the Appendix on page 226.]

    Mr. Johnson. Thank you, General.
    [Applause.]
    Mr. Johnson. And by the way, thank you, General, for 
serving your country as a man in uniform.
    [Applause.]
    Mr. Johnson. Next, Mr. Hamilton, Regional Director, 
Southeast Region, U.S. Fish & Wildlife Service. Thank you for 
coming today, sir. You have five minutes for your testimony. 
Your written testimony will be included in the record.


  STATEMENT MR. SAM D. HAMILTON, REGIONAL DIRECTOR, SOUTHEAST 
              REGION, U.S. FISH & WILDLIFE SERVICE


    Mr. Hamilton. Thank you very much. It is good to be here, I 
think.
    [Laughter.]
    Mr. Hamilton. And to be last.
    As you have heard, there is quite a bit of discussion about 
the role of mussels and endangered species. I hope to touch on 
that, but in five minutes, I cannot do it justice. But 
hopefully in the questions and answers we can cover some of 
that.
    I do represent the Department of Interior, I represent the 
United States Fish & Wildlife Service and I have done that for 
30 years. The Southeast Region includes ten southeastern states 
and the Caribbean.
    The Fish & Wildlife Service is the principal federal agency 
that is responsible for conserving, protecting and ensuring 
that fish and wildlife resources are protected for your 
generation and for future generations. And part of that role 
and responsibility is the Endangered Species Act which was 
passed by Congress in 1973.
    As you have all heard, this drought is significant. It not 
only affects Georgia, it affects Alabama and Florida and all 
across the Southeast. We are very actively working with the 
Army Corps of Engineers and the Tennessee Valley Authority on a 
number of river basins dealing with some extremely sensitive 
issues. This drought has had a profound effect, as you all have 
heard and you have experienced, on the economy of the state of 
Georgia. If we were having this field hearing in the state of 
Florida, I expect they would feel the same way. And similarly 
in the state of Alabama with the ACF and ACT basins.
    Oftentimes people say what is the worth and why should you 
care about endangered species, you know, it is just a bunch of 
mussels. The southeastern rivers are the most diverse rivers in 
the United States, they always have been. The biodiversity that 
is found there is unequaled. That is why the reservoirs in the 
Southeast are the most productive. The rivers are really like a 
lifeline and the arteries of communities like this, but also 
all across the Southeast. Where I grew up in Mississippi, the 
Mississippi River is that very artery, it provides clean 
drinking water, recreational opportunities, navigation, fish 
and wildlife habitats and food for people. The Southeast is 
blessed in many regards in that respect.
    In addition to the biodiversity that we have, it is the 
most imperiled biodiversity in the United States. Two-thirds of 
the nation's mussels are endangered. One in ten have already 
gone extinct and 40 percent of the fish in the United States 
are threatened with extinction. So our rivers are important not 
only from an economic perspective but also from an 
environmental perspective. The health of the river is made up 
by the biodiversity that you find there.
    So we take our job very seriously and we understand the 
implications of what we do when we get into this. This issue, 
unfortunately, has been characterized as mussels versus people. 
And most of you know that this issue is not new and it has been 
around for 20 years. You have heard about the water wars. We 
have spent the last five months negotiating and discussing with 
the three states and the governors on how to hopefully bring an 
end to that issue. Those discussions will likely continue into 
the future. We have worked very closely with the Army Corps as 
we entered into a drought and will continue to work with them 
as we understand conditions in Lake Lanier are very serious as 
summer approaches.
    We got into the 2007 interim operating plan under the eyes 
of the federal courts in the state of Florida in litigation 
that has clouded many of these discussions. And we continue to 
have litigation surrounding all of these discussions and the 
management of the ACF system.
    We realized working very closely with the Corps in 2007, 
the drought continued to worsen so the exceptional drought 
operation plan was put into effect and the storage of all high 
flows, when they come, are now allowed to be stored. We also 
agreed to drop the endangered species required flows by ten 
percent from 5,000 to 4,500 CFs in a biological opinion. 
Recognizing the emergency situation or at least the seriousness 
of it, we did it in 15 days. The typical consultation period is 
four months. We did it in 15 days, the first time that has ever 
happened.
    We have a team of folks working with all the states right 
now looking at contingency planning on how to relocate mussels 
as well as bring them into captivity, which is highly 
speculative and oftentimes not very successful. Nevertheless, 
we look for flexibility and we are looking for ways to maintain 
the very rich biodiversity that is found in the Apalachicola 
system and the Chattahoochee system, recognizing the 
limitations that we have to face in the record drought.
    The 5,000 CFs that we hear talked about quite a bit 
historically only happened in the last 100 years, maybe a 
handful of times, if that. That is where 5,000 CFs comes into 
play. But we have authorized incidental take of endangered 
species through the biological opinion, for the Corps to go to 
4,500 CFs. We will reissue a biological opinion based on a new 
plan when we get that some time in the next month or so.
    Secretary Kempthorne has invested quite a bit of time and 
effort trying to negotiate and work with the states on how to 
allocate these flows throughout the three state area, and 
continues to be committed to try to work through those issues 
with all the stakeholders and partners.
    In the end, I would say that the Fish & Wildlife Service is 
very sensitive to the competing needs and issues and very much 
recognizes the effect on all these reservoirs as well as on the 
Apalachicola system itself, one of the greatest estuaries left 
in the Gulf of Mexico and certainly in the eastern United 
States. And we continue to want to work very closely with the 
Corps and all of you as we work through this exceptional 
drought that we are dealing with.
    And I will reserve the balance of time for questions. Thank 
you.
    [The prepared statement of Mr. Hamilton may be found in the 
Appendix on page 237.]

    Mr. Johnson. Thank you, Mr. Hamilton, we appreciate your 
appearance today to shed some light on your agency's handling 
of this issue.
    Congressman Westmoreland has been concerned about the 
impact that this drought has had on Georgia's economy, 
specifically this area of his district. And with that in mind, 
I think it is best for me to yield to Congressman Westmoreland 
for questions.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    First of all, let me say, General Schroedel, I want to 
thank you for being here today. I want to thank you for your 
openness. I think I met you about a year ago in Columbus and we 
were talking about this same subject. And General Schroedel 
told me then that he would be responsive to me in getting me 
any information that I requested, and he has been true to that. 
I normally write him--I think I have written him over 17 
letters in the last year or so. And in about two weeks, we will 
get a response. And trust me, that is lightning fast for a 
government agency. So I do want to commend you and thank you 
for that. And I want to thank you for all that you have done 
for this area in the last year. I think we have seen some 
improvement and I think we have seen the dialogue open. I want 
to thank you for the years of service that you have given to 
this country. And now I am going to ask you some hard 
questions.
    General Schroedel. Sounds great. Bring them on.
    Mr. Westmoreland. General, this lake has got Congressional 
authorization and I am sure you are aware of that. One of those 
authorizations has been for recreation. And as you know, the 
recreation level is about 632.5. Over the past 30 months, I 
think we have actually had two months out of 30 that have been 
at that level for recreation. And as you heard today 
testimonies from these small business owners and from others 
the effect that it has had. Where does that Congressional 
authorization fit in with the Corps' management of the lake and 
the basin?
    General Schroedel. Sir, we often get asked the question, 
hey, can we prioritize those Congressionally authorized 
purposes. And we generally shy away from that because what we 
try to do is manage the lake levels in a way that we can 
provide some level of all of those Congressionally authorized 
purposes. And in terms of recreation, you know, some people 
would advocate that well, recreation is less important than 
flood control, for example. Well, maybe during certain times of 
the year, that may be true. But I think the way we would come 
down on that is we take what mother nature gives us, we manage 
it the best we can to meet all the purposes and if the lake is 
not full or does not meet the recreation level, at least there 
is some water in the lake and we need to figure out how to 
adjust how we use what is in there.
    I can tell you after being in this same level command in 
the west for three and a half years, where five inches of rain 
is what is experienced out there versus the average here of 
almost 50 inches of rain normally, what you will find in the 
lakes out west are three levels of ramps. They have actually 
built three levels of ramps in their lakes, depending on what 
mother nature gives them. So if it is a good year, we will use 
the top ramp, if it is a bad year, we will use the low ramp.
    So, sir, I would suggest that one of the things we need to 
think about hard as we face climate change and face more of 
these kinds of droughts and more severe droughts, we ought to 
think about maybe how we adjust our behavior to accommodate 
mother nature and use what she gives us.
    So we do not prioritize, we try to balance all of the 
competing needs and all of the Congressionally mandated 
purposes.
    Mr. Westmoreland. That is great and I think that we would 
love to see some of these boat ramps extended where we would 
have more than two ramps making the lake accessible. But also, 
this would have been some good thought for the Corps to remove 
some additional stumps that are out there in the lake.
    General Schroedel. Absolutely.
    Mr. Westmoreland. Because when you get down below that 632, 
there are many foots of some of these motors laying out there. 
And I think Mr. Nichols testified to the damage of some of the 
boats that he leased due to the fact of the Corps leaving some 
trees out there that does not let us enjoy some of those 
levels.
    I had written you a letter I think in February of 2008 
talking about the sensitivity studies and we have talked about, 
you know, or at least heard today about rule curves, 
engineering designs, modelings and other things. And I sent you 
a letter requesting these sensitivity studies that you had sent 
out to California. And you had written me back and said it was 
confidential information, that it was an agreement with the 
governors and the states. But that agreement is gone now and is 
there any way now that you might--and I am not going to try to 
put you on the spot and we will talk about it later, it is a 
hard question, I know. But we need to know what those are so we 
could get Mr. Crisp and some other people able to look at it. 
Not that we do not trust you, but there have been some studies 
done and some studies released about economic impact and use of 
these lakes where West Point really was not included in those 
studies. And so we want to feel like we are a part of it and at 
least we have something to kind of back up or affirm what you 
may say.
    General Schroedel. Sir, I will go back and look at it, but 
you know, the negotiations that we went through with the three 
governors and their delegations over the last four months or 
so, we all signed, including Sam here, a confidentiality 
agreement at the request of the governors and at this point, we 
are still told that any of the information and discussions that 
were a part of those deliberations are still--we are still 
under the confidentiality agreement.
    But I would tell you that those sensitivity analyses to 
which you refer, you would not get a whole lot out of it, I 
will just tell you that. It turned out not to be very 
significant.
    Mr. Westmoreland. That does not surprise me, for some 
reason.
    General Schroedel. But I will go back and--
    Mr. Westmoreland. I understand, but if you could just go 
back and look at it.
    General Schroedel. Yes, sir, I will, gotcha.
    Mr. Westmoreland. Since the agreement is not working.
    General Schroedel. Yes, sir, I will.
    Mr. Westmoreland. And here is the other thing. You know, in 
a meeting that me and you and Mr. Hamilton and others were at 
Senator Chambliss' office I guess, you mentioned that the Corps 
had used West Point as the workhorse of that basin. And I 
understand. I do not know where that term came from, but is it 
not true that it was not--that basin, the ACF, was intended to 
be part of a three-legged stool. You had the Allatoona, the ACT 
and the ACF and then you had the Flint.
    General Schroedel. Right.
    Mr. Westmoreland. And if you look at the map right behind 
you, and I know you are familiar with it, the Flint comes down 
through Bainbridge into Lake Seminole. And General, I am sure 
you have gone back too and seen in 1945 that there were three 
dams authorized for the Flint.
    General Schroedel. Yes, sir.
    Mr. Westmoreland. That was de-authorized I believe in the 
WRDA bill or the water bill of 1982 or 1986, I cannot remember 
now. But it was de-authorized. But we have heard testimony 
today and I think both of you or at least some other people 
mentioned the water that comes in from the Flint, we really 
have no way to control that water. And we are looking for a 
fix, not a bandaid but a fix. And I think if we are ever going 
to get a fix, that we need to be looking at some ways that we 
can control that water on the Flint.
    General Schroedel. Absolutely.
    Mr. Westmoreland. What is the Corps' feeling on that and if 
that was something that the Corps came up with in 1945--and I 
know you were not with the Corps in 1945--probably were not 
born in 1945, but in 1945, the Corps saw the necessity for this 
three-legged stool to manage this water and now we have only 
got two legs.
    Can you just address that for a moment?
    General Schroedel. Yes, sir. I would tell you that my 
contention is we probably would not have any discussions about 
the ACF if we had those reservoirs on the Flint. For example, 
the 5000 CFs that we talk about at the Chattahoochee gauge to 
support the endangered species in Florida is really kind of the 
natural flow. And what you would find if you look at the 
records of what the flows actually are, since we cannot control 
what comes down the Flint, you will find many days of 26,000, 
30,000 CFs flowing, not 5000. And the only reason it is that 
high is we cannot control it.
    The significance of the Flint to the Chattahoochee is 
pretty simple. If you cannot control what comes down the Flint 
and it turns out that water just flows right on out to the bay, 
and then you need to augment the flows at Chattahoochee, where 
are you going to get it. Well, we cannot control the Flint, so 
that is where we turn to the Chattahoochee and be it Lanier or 
whatever, we have got to rely on this system.
    And today, the situation we find ourselves in because of 
the way the rain fell, which basically the rain the last 
several months has ignored Lanier, Allatoona, Carters, Weiss, 
all of the headwater lakes of these systems have been ignored 
pretty much by the rain. So they are hurting. The rest of the 
system like West Point is pretty healthy. So what have we got 
to augment those flows? It is going to come out of where you 
have the water. So if we had the ability to control the water 
in the Flint, we would be in a much better shape to preserve 
water on the Chattahoochee leg. So you are absolutely right.
    Mr. Westmoreland. Well, thank you. And Congressman Deal and 
I are working on legislation right now to kind of renew those 
studies and we hope that the Corps will join us in that in 
maybe relating to some of the powers that be that we think it 
would be money well spent to do that study. And I am sure the 
people of Albany and down river that have been flooded out 
would certainly agree to that too.
    Mr. Hamilton, are you familiar with a study that was 
completed by the Corps relative to I think it is the Fat 
Threeridge Mussel that was prepared by Barry Payne of the U.S. 
Corps of Engineers?
    Mr. Hamilton. I am not necessarily familiar with that 
study, but assume that some of the results have been factored 
into our biological opinion.
    Mr. Westmoreland. Okay, so you think that--because if you 
look at that report, it talks about maybe that there are more 
mussels, they are a little more abundant than what had 
originally been anticipated. And I think--and I am not sure if 
it is the same study or another one that goes into the fact 
that at a time I guess that one of these original studies was 
done, that there was not divers and equipment and boats and 
other things that were made available to do this study.
    Mr. Hamilton. Well, I think that is a good observation. You 
know, when dealing with endangered species, oftentimes there is 
a lack of information on the abundance and distribution of 
them. We have found some small populations up and down the 
Apalachicola as well as in a couple of other river basins. So 
we continue to get new information. The states of Florida and 
Georgia as well as a number of researchers are out working that 
river today. So we are getting new information and an update on 
that one.
    Mr. Westmoreland. Okay, because I think that was an August 
26, 2007 study where they looked at several different species 
of the mussels.
    Let me ask you another question. And I had asked you in 
Washington this same question and I think you referred me to 
one of the other gentlemen, but did you ever find out what the 
natural flows of the Chattahoochee and the Flint were?
    Mr. Hamilton. I did dig into that. You know, when you talk 
to these hydrologists--
    Mr. Westmoreland. I am going to keep asking him until he 
answers.
    Mr. Hamilton. Yes, sir. I will give you the answer, but I 
am not a hydrologist. There is a range of flows. You have 
median and medium flows and you have peak high flows and medium 
monthly flows. But the flows that I heard today dating back to 
I think the 1920s--the U.S. Geological Survey are the folks 
that manage the gauges that General Schroedel talked about--the 
figures that I saw were around 5,000 CFs for the low flow. I 
think since there were impoundments, flows dipped below that 
just a couple of times. But pre-impoundment, up to 291,000 CFs 
was the figure that I was given today. So you have this wide 
range of high spring flows and winter flows dating back in the 
1920s to 290,000 CFs all the way down to low flows of about 
5,000 CFs.
    Mr. Westmoreland. I think that there are, at least from 
some of the people that I have heard from not only in Troup 
County but in Coweta County, there has actually been certain 
instances back in the 1920s and the 1930s where people have 
actually walked across the Chattahoochee River because of the 
drought. I had one family tell me that their family had 
actually planted a garden down in the river bed one summer to 
be able to water it, because the drought was so extensive.
    So, you know, these species have adapted to the most severe 
drought we can ever imagine that would come down, and that was 
during a natural flow of the river. And as the General talked 
about, we have got to learn to deal with climate change. But 
these are cycles that we have been going through, you know, 
since this place was created.
    The other question that I was going to ask of the Fish & 
Wildlife is--I think, is it June 1 that we go back to the old 
way of doing business? It is not?
    Mr. Hamilton. No, sir.
    Mr. Westmoreland. Okay.
    Mr. Hamilton. We issued a biological opinion based on this 
exceptional drought that would carry us through June 1. And 
since November, obviously we have been in discussions with the 
three states, collecting information and looking at how to 
modify the interim operating plan which nobody likes. And it 
did have unintended consequences, the exceptional drought plan, 
and looking at flows up and down the system. So we have gotten 
a lot of good information out of that. The Corps obviously has 
gotten a lot of good hydrologic information. They are working 
to take that information and they are going to update and 
modify the plans and do what is called a biological assessment. 
Our hope is that that will come to us sometime maybe in April. 
We intend to prepare a biological opinion reacting to what they 
give us by June 1, 2008.
    So I do not think anybody expects that we will fall back to 
the interim operating plan. That will not happen, I do not see 
that happening.
    Mr. Westmoreland. Okay.
    General Schroedel. Sir, if I could add to that.
    Mr. Westmoreland. Yes.
    General Schroedel. The current scheme, the exceptional 
drought operations procedures that we are using, the major 
difference between that and the old IOP is that 5000 is 
essentially the maximum that we are letting go at the 
Chattahoochee gauge. Under the IOP, what some people refer to 
that exacerbated the problem was the fact that above 5000--if 
the inflows into the basin reached 18,000 CFs, the old IOP said 
we let that go in addition to the 5000.
    Mr. Westmoreland. That is what I am getting to.
    General Schroedel. And everything above that, we let about 
a third of that go. What the EDO or the exceptional drought 
operation scheme says is we are not going to do that. It is 
5000. But what the EDO also says is we can go below 5000, down 
to 4750. What we are in the throes of doing is adjusting the 
IOP also.
    But here is the key point. The way we manage making the 
decision to move to either a new IOP or the old IOP or 
something other than the exceptional drought scheme is what we 
call triggers. So what we do is we now have a composite entire 
basin storage rule curve that has four zones--zones 1, 2, 3, 4. 
And we track composite storage in all of the basins on the 
system. Today, the composite storage is in zone 4. The 
trigger--the trigger--that would cause us to come out of the 
exceptional drought operation is when the composite storage 
gets back into zone 2. We do not see that happening any time 
soon, in the next couple of years, which means right now, our 
expectation is we stay in the exceptional drought operation 
mode probably for the next couple of years, because the 
composite storage--we do not see that getting back there any 
time soon.
    So we have done it on an event and on a situation basis as 
opposed to, you know, some unscientific or non-specific kind of 
trigger.
    Mr. Westmoreland. Well, I take that as good news--I take 
that as good news because we are able to store some of that 
water that we have just been flushing out the Gulf.
    General Schroedel. Absolutely; yes, sir.
    Mr. Westmoreland. General, my last question to you, you 
have been here for a year and I think we have made great 
progress. In your work with Sam, I mean you all are like twins, 
every time I go somewhere, I see you all together, so I know 
you are working very closely. But one of the problems that we 
have had with the Corps is change of command. And we are right 
now in the process of rewriting or updating these water manuals 
and, you know, we hear about places on the Missouri River or 
other places that it has taken eight years to update these 
manuals. And I am not saying whoever comes after you is not 
going to be as good a communicator as you have been, but how 
long--I mean honestly, how long do you think it is going to 
take to update these manuals and, you know, what kind of 
influence do you think you are going to have in the common 
sense approach that you have taken to some of this in getting 
these manuals updated in a speedy fashion?
    General Schroedel. Sir, I appreciate you asking the 
question. First, in terms of me personally, I appreciate your 
comments and I thank you for those.
    My position is normally a two year command. I am going to 
stay for a third year, so I will be here at least through next 
summer.
    Mr. Westmoreland. Good deal.
    General Schroedel. The other thing that we have done, we 
the Corps have done, and the Chief of Engineers has done, at 
the request of the Congress is we have put in place a gentleman 
by the name of Mr. Jerry Barnes, who is a long time Corps 
employee, a general officer equivalent, senior executive 
service retired. We brought him back and now his sole duty is 
to be the overseer of the manual process. He was told by the 
Secretary of the Army specifically that he answers to the 
Congress, he answers to the Chief of Engineers and he has the 
oversight. So we have put in place that long term continuity.
    So in the short run, we have already been given the go-
ahead to do the manuals. We have already announced them in the 
Federal Register. The first step is a basin-wide EIS, that is 
an environmental impact statement. And this is where the public 
comes in. A part of that EIS process is developing alternative 
procedures for how we operate the system. We will take that 
input and develop alternatives and then ultimately come to a 
conclusion.
    So the direct answer to your question on how long it is 
going to take--and I am going to say this in a qualified way--
and what we have seen in writing is that the Corps has said it 
takes two to three years. Well, that is two to three years, 
assuming nobody gets in our way and that the public 
participates. So there are lots of things that could happen 
that would slow us down, and I think most people know, or at 
least I hope you know that the Corps has tried to begin to 
update these manuals for the last 20 years and we get stopped 
every time we try. Our opinion right now is that the time is 
right because of the drought, because of the mandate of the 
people that you expect it, and through your elected members, 
you will ensure that it does happen.
    So in a positive, unimpeded environment, sir, we could 
probably get it done in two to three years. How long is it 
really going to take? Sir, your guess is as good as mine. I 
hope we can get it done in the amount of time that we think we 
can do it. But we are going to need the help of every citizen 
in the region and the Congress and everyone else in the 
industry, municipal water supply, whatever. We need everybody's 
help to figure out the right way to manage these systems. So 
you all have an important role to play in helping us do that.
    Mr. Westmoreland. Thank you.
    Mr. Johnson. All right, ladies and gentlemen, out of 
respect for your time, I am going to not ask any questions and 
I will say that I am very impressed with the number of people 
that are here for this hearing and the fact that you hung 
around throughout the hearing. So I am very much impressed, and 
once again, I would like to thank Congressman Westmoreland for 
his efforts in putting together this hearing as well as the 
distinguished panelists who have appeared before us today.
    This hearing, ladies and gentlemen, has been an excellent 
opportunity for me to hear the perspectives of the panelists on 
this extraordinary situation and also to hear from those who 
reflect your concerns about it as well. I think that it has 
been very helpful for the federal agencies to hear the 
perspective of the small businesses that are suffering as a 
result of this drought, and I also think that the small 
businesses have benefitted by allowing the federal agencies to 
explain how they try to balance the varied and complicated 
needs of the ACT and ACF river systems.
    It is my sincere belief that with the continued involvement 
of everyone present here today, Congress, federal agencies and 
the governors of Georgia, Alabama and Florida, will arrive at 
an equitable solution to the tri-state water sharing issue and 
this is definitely in the interest of the public.
    The testimony that I have heard today has been 
extraordinarily helpful and I will continue to work towards a 
solution.
    Having given my closing remarks, I will now ask for closing 
remarks from Congressman Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman. And I want to 
thank the General and Sam for being here. You know, we heard 
several people talk today about common sense and the lack of 
it. And there is nobody that has dogged the Corps and Fish & 
Wildlife more than me. I have talked bad about them a lot, some 
they deserved it and some they did not. But these two guys 
here--and I am going to take up for you--they try to put as 
much common sense behind the decisions that they make as they 
are allowed to by law. And I was not a big believer in that, 
but I have met with these gentlemen, this is probably the 
fourth time that we have sat down and talked and I can tell you 
that these two guys right here try to use as much common sense 
as they can.
    I want to thank you all for coming, you came into what 
could have been some hostile environment today, but I want to 
thank both of you for being here and taking your time.
    And I want to thank all the witnesses who came and took 
their time out to come and testify in front of us and let us 
hear it and let Congressman Johnson hear it, because when we go 
back to these delegation meetings that we have--and I want to 
tell you, you know, you hear the term bipartisan and there is 
not a lot of that in Washington, I can promise you, but truly 
bipartisan is the Georgia delegation with both the U.S. 
Senators, with Mr. Lewis and Hank and the Republicans. We have 
all worked together on this issue and some of the 
correspondence that we have had with both of these agencies.
    I want to thank all of you in attendance today for being 
here, to come out and to show the agencies, the General and Mr. 
Hamilton, the kind of concern that this has and to show 
Congressman Johnson that this is a concern. And all those 
pictures that were up there--and Mr. Hamilton, I think if you 
saw all those pictures, surely we have got some kind of 
endangered species somewhere that should be floating in that 
lake. And Mr. Nichols will give you a boat and we can get some 
volunteer divers to look for some of these things.
    [Laughter.]
    Mr. Westmoreland. But we have got to have something 
endangered in that lake. But I want to thank all of you for 
being here and giving me your support and letting these people 
understand that what I have been telling them has been 
justified.
    I also want to thank the people here at West Georgia 
Technical College, who made all the arrangements and handled 
setup for today's hearing. I want to thank all the staff. We 
cannot go anywhere without staff telling us what to do, and for 
them traveling to LaGrange from Washington, D.C. and all the 
preparation that they did for Hank and I in getting prepared 
for this hearing.
    And I also want to thank this gentleman sitting next to me, 
Congressman Hank Johnson. You know, one of the requirements, as 
he stated before, is that in being eligible to have a field 
hearing, you have to have somebody from the Majority party that 
is willing to come down and hold a hearing for you. And when I 
went to Hank, I mentioned it to him and he accepted 
immediately. He said yes, I will do that for you, because he 
understood and he had heard me talk in some of these delegation 
meetings about how we were suffering down here. And so when I 
asked him to participate, he never hesitated one minute, and 
said Lynn, I would be happy to do it. So I want to thank him 
for taking that time out and I want to apologize to him for 
getting caught in the road construction. But I do want to thank 
you for coming down here and chairing this very important 
hearing and I hope to return the favor to you one day, that I 
can go up and sit in on a field hearing that is important to 
your district as this hearing was for my district.
    But Mr. Chairman, that is all I have got. Again, thanks to 
everybody here and I yield back the balance of my time.
    Mr. Johnson. Thank you, Lynn. And I will tell you, it takes 
you to be in the Majority for you to have to come to my 
district to do what I did for you.
    [Laughter.]
    Mr. Johnson. And I do not think I want to see that happen 
any time soon.
    So I am going to ask unanimous consent that members of the 
Committee have five days to enter statements into the record. 
Without objection, so ordered.
    This hearing is now adjourned.
    [Whereupon, at 2:16 p.m., the Committee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                 <all>

</pre></body></html>
